No. 19-266

tje itpupreme Court of tbe

CCitEb 6tate5

SEANTREY MORRIS,
Petitioner,
v.

JOSEPH MEKDESSIE, BRANDON LEBLANC; DANIEL
SWEARS; ARTHUR S. LAWSON, IN HIS OFFICIAL CAPACITY
AS CHIEF OF POLICE, CITY OF GRETNA POLICE DEPARTMENT; GRETNA CITY
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

BRIEF OF TASC, INC. (TREATMENT
ALTERNATIVES FOR SAFE COMMUNITIES)
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
As required by Supreme Court Rule 33.1(h), I
certify that this Brief contains 5988 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 30, 2019.

Joshua S. Johnson
Counsel for Amicus Curiae

